AUGUST 15, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




       STATUS OF NASA’S DEVELOPMENT OF THE
           MULTI-PURPOSE CREW VEHICLE




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-022 (ASSIGNMENT NO. A-12-002-00)
Final report released by:



Paul K. Martin
Inspector General




Acronyms

CEV      Crew Exploration Vehicle
ESA      European Space Agency
FY       Fiscal Year
GAO      Government Accountability Office
GSDO     Ground Systems Development and Operations
ISS      International Space Station
MPCV     Multi-Purpose Crew Vehicle
OMB      Office of Management and Budget
OIG      Office of Inspector General
PDR      Preliminary Design Review
SLS      Space Launch System



                                                     REPORT NO. IG-13-022
AUGUST 15, 2013




                                                                                           OVERVIEW
                         STATUS OF NASA’S DEVELOPMENT OF THE
                             MULTI-PURPOSE CREW VEHICLE
                                                                                             The Issue

  In April 2013, NASA announced plans for a mission by 2025 to identify, capture, and
  relocate an asteroid while emphasizing that Mars is its ultimate destination for beyond
  low Earth orbit exploration. Some Members of Congress, however, advocate human
  exploration and landing on the moon as the next step in human exploration for NASA.
  Whatever the destination, successful development of the crew capsule known as the
  Multi-Purpose Crew Vehicle (MPCV) is critical to the overall success of NASA’s
  exploration efforts.

  Originally known as the Crew Exploration Vehicle (CEV), the MPCV is an outgrowth of
  NASA’s defunct Constellation Program. Following cancellation of the Constellation
  Program in February 2010, Congress passed the NASA Authorization Act of 2010
  requiring the Agency to use, to the extent practicable, the existing contracts, investments,
  workforce, and capabilities of the CEV to develop the MPCV. The Act also set the goal
  of achieving full operational capability for the MPCV no later than December 2016.

  The MPCV Program has seen its funding reduced from what the Program expected to
  receive during the Constellation Program, and now anticipates receiving a flat budget
  profile of approximately $1 billion per year for the remainder of the 2010s and into the
  2020s.1 Given this budget profile, NASA is using an incremental development approach
  under which it allocates funding to the most critical systems necessary to achieve the next
  development milestone rather than developing multiple systems simultaneously as is
  common in major spacecraft programs. NASA officials expect this approach will allow
  the Program to make early progress and use test flights to reduce risk on several key
  systems. However, prior work from the NASA Office of Inspector General has shown
  that delaying critical development tasks increases the risk of future cost and schedule
  problems. Moreover, NASA Program officials admit that this incremental development
  approach is not ideal, but assert that it is the only feasible option in the current budget
  environment.

  As adjuncts to the MPCV Program, NASA is developing a new “heavy lift” rocket
  known as the Space Launch System (SLS) to launch the MPCV, as well as the Ground
  Systems Development and Operations (GSDO) Program to support both the capsule and



  1
      Additionally, in 2009, NASA allocated $166 million of the $1 billion it received as part of the American
      Recovery and Reinvestment Act of 2009 to development of the MPCV.



REPORT NO. IG-13-022
                                                                                      OVERVIEW



     the rocket. The Agency has also formed a partnership with the European Space Agency
     (ESA) to provide the MPCV Service Module, a critical component of the new spaceflight
     system.

     We evaluated NASA’s management of the MPCV Program in light of the directives in
     the Authorization Act and subsequent changes in national space exploration priorities,
     Program focus, and funding profiles. Specifically, we reviewed the Program’s
     development approach, its progress in meeting cost and schedule goals and overcoming
     technical challenges, and its coordination with the SLS and GSDO programs and ESA.
     We also reviewed NASA’s use of and accounting for American Recovery and
     Reinvestment Act of 2009 funds. Details on our scope and methodology can be found in
     Appendix A.

     Results

     MPCV is one of three key components of NASA’s efforts to continue human space
     exploration beyond the International Space Station (ISS) and low Earth orbit.
     Consequently, its successful development is critical to the overall success of the
     Agency’s human exploration efforts. Constrained funding for the MPCV forced Program
     managers to adopt a less-than-optimal incremental development approach in which
     elements necessary to complete the most immediate tests are given priority while
     development and testing is delayed on other important but less time sensitive aspects of
     the Program. While this may be the only realistic and affordable development approach
     available to NASA given the Program’s current funding profile, such an approach
     increases risks.

     Although we believe MPCV Program officials are managing the Program as effectively
     as they can within a constrained budget, we are concerned about the future of the
     Program given the risks associated with incremental development and dependencies on
     the SLS and GSDO programs and the ESA for delivery of the Service Module. For
     example, the MPCV Program is beginning to experience testing delays that could result
     in schedule interruptions and cost increases down the road. Specifically, test dates have
     slipped 4 years on the Ascent Abort-2 test and 9 months on the Exploration Flight Test-1.
     NASA has also delayed development of many of the life support systems required for
     crewed missions. Similarly, reliance on timely progress of the SLS and GSDO programs
     and the ESA adds risk that is outside the control of the Program and could have a
     negative impact on the MPCV and NASA’s overall exploration mission goals.

     Even after the MPCV is fully developed and ready to transport crew, NASA will
     continue to face significant challenges concerning the long-term sustainability of its
     human exploration program. For example, unless NASA begins a program to develop
     landers and surface systems, NASA astronauts will be limited to orbital missions using
     the MPCV. Under the current budget environment, it appears unlikely that NASA will
     obtain significant funding to begin development of this additional exploration hardware,
     thereby delaying such development into the 2020s. Given the time and money necessary


ii                                                                        REPORT NO. IG-13-022
OVERVIEW



  to develop landers and associated systems, it is unlikely that NASA would be able to
  conduct any surface exploration missions until the late 2020s at the earliest. Finally, we
  determined that NASA properly tracked and accounted for its use of $166 million in
  American Recovery and Reinvestment Act of 2009 funds in developing the MPCV.

                                                                Management Action

  Although we made no specific recommendations for corrective action, we encouraged
  NASA managers to be as transparent as possible when discussing the issues facing the
  MPCV Program and the risk associated with its incremental development. We believe it
  vital that Congress and the public recognize that incremental spacecraft development is
  not an optimal way to sustain a human space program. Further, NASA must continue
  their efforts to enhance communication between the MPCV, SLS, and GSDO programs
  to ensure that the schedules for these interdependent programs remain aligned.

  The Associate Administrator for the Human Exploration and Operations Mission
  Directorate agreed with the general observations made in the report and with our
  description of the risks created by the funding challenges that drove the Program to adopt
  an incremental development strategy. In addition, he noted that the MPCV Program has
  made significant progress in mitigating the technical risks highlighted in the report, and
  that the MPCV, SLS, and GSDO programs actively participate in an integration process
  and governance structure with direct senior-level participation. Similarly, he stated that
  the Program is building strong relationships and making progress with ESA to assure its
  contribution of a service module meets the required schedule. Despite these efforts, the
  Associate Administrator noted that NASA must continue its efforts to enhance
  communication between the MPCV, SLS, and GSDO programs to ensure that the
  schedules for these interdependent programs remain aligned.

  Finally, the Associate Administrator stated that NASA managers are encouraged to be as
  transparent as possible when discussing the issues facing the MPCV Program and the
  risks associated with its incremental development. Management’s full response is
  reprinted in Appendix B.




REPORT NO. IG-13-022                                                                           iii
AUGUST 15, 2013




                                                         CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 7

  RESULTS
      Multi-Purpose Crew Vehicle Program Faces Significant Risks in
      Meeting NASA’s Human Exploration Goals __________________ 8

  APPENDIX A
      Scope and Methodology _______________________________ 21
      Review of Internal Controls _____________________________ 23
      Prior Coverage _______________________________________ 23

  APPENDIX B
      Management Comments _______________________________ 26

  APPENDIX C
      Report Distribution ___________________________________ 28




REPORT NO. IG-13-022
AUGUST 15, 2013




                                                                      INTRODUCTION


Background

  In 2006, NASA awarded Lockheed Martin a contract to begin development of the next
  generation crew capsule to carry astronauts into space. Together with the Ares I and
  Ares V rockets and the Altair lunar lander, the vehicle – known as the Orion Crew
  Exploration Vehicle (CEV) – comprised a key component of the Agency’s Constellation
  Program. NASA began developing the CEV and the Ares I with the goal of transporting
  crews to the International Space Station (ISS) as soon as possible following retirement of
  the Space Shuttle Program. In addition, Constellation was supposed to enable human
  exploration beyond low Earth orbit using the “heavy lift” Ares V rocket. NASA planned
  to use essentially the same crew vehicle for both Ares I and V types of missions, with the
  addition of fuel tanks to extend the capability of the CEV for missions beyond low Earth
  orbit.

  The architects of Constellation assumed a funding profile of approximately $10 billion
  per year for exploration. However, when both the Space Shuttle and the ISS programs
  were extended beyond their respective planned ending dates of 2010 and 2016, the
  money from those programs that was supposed to be redirected to the Constellation
  Program was no longer available. The shortfall in funding, coupled with technical
  problems relating to development of the Ares I and CEV, led NASA to delay
  development of the Ares V and the Altair lunar lander.

  In May 2009, while the Ares I and CEV were still early in development, the White House
  Office of Science and Technology chartered a committee to review NASA’s human
  spaceflight plans, including the Constellation Program. The White House charged the
  Review of the U.S. Human Space Flight Plans Committee, known as the Augustine
  Committee, with ensuring that the nation was following the best path forward beyond the
  Space Shuttle Program and within the President’s budget profile. The Committee
  concluded that without a significant increase in funding – estimated at $3 billion per year
  above the President’s fiscal year (FY) 2010 $6 billion budget for exploration – the
  Program would be unable to deliver a “heavy lift” vehicle until at least the late 2020s.

  The Augustine Committee also examined the design and development of the CEV and
  determined it would be acceptable for use in a human exploration program. However, the
  Committee was concerned about the CEV’s recurring costs, which it estimated at
  approximately $600 million for each vehicle produced. The Augustine Committee also
  predicted that NASA would need an additional 2 years beyond its planned date to
  complete development of the CEV and Ares I.




REPORT NO. IG-13-022                                                                            1
                                                                                                 INTRODUCTION



    In February 2010, President Obama released a FY 2011 budget that eliminated all
    funding for the Constellation Program. At that point in time, the CEV had completed its
    Preliminary Design Review (PDR) and was still in the early design phase.2

    Despite substantial opposition by members from both parties, Congress ultimately agreed
    to cancel the Constellation Program but directed NASA to develop a new “heavy lift”
    rocket, crew capsule, and related ground support infrastructure to enable human
    exploration beyond low Earth orbit. Specifically, the NASA Authorization Act of 2010
    (Authorization Act or Act) directed the Agency to develop the Multi-Purpose Crew
    Vehicle (MPCV) and the Space Launch System (SLS) using the existing contracts,
    investments, workforce, and capabilities from the Space Shuttle and the Constellation
    programs “to the extent practicable.”

    The Act set the goal of achieving full operational capability for the MPCV no later than
    December 31, 2016, and directed NASA to design the MPCV with the following
    minimum capabilities:

               serve as the primary crew vehicle for missions beyond low Earth orbit;

               conduct regular in-space operations, such as rendezvous, docking, and
                extra-vehicular activities in conjunction with payloads delivered to the ISS;

               provide an alternative means of delivery of crew and cargo to the ISS in the event
                commercial or partner-supplied vehicles are unable to do so; and

               have the capacity for efficient and timely evolution, including insertion of new
                technologies.

    As shown in Table 1, the MPCV Program received a total of $3.6 billion for FYs 2011
    through 2013.

                                  Table 1: Funding Received by MPCV
                                             ($ in billions)
                      Fiscal Year                            MPCV Appropriations
                          2011                                     $1.2
                          2012                                     $1.2
                          2013                                     $1.2
        Total                                                      $3.6
    Source: Appropriations Acts for FYs 2011, 2012, and 2013.




    2
        The PDR is a key milestone in space systems development because it demonstrates that a program’s
        preliminary design meets all system requirements with acceptable risk and within cost and schedule
        constraints. A successful PDR establishes the basis for proceeding with a program’s detailed design
        stage.



2                                                                                       REPORT NO. IG-13-022
INTRODUCTION



  The $3.6 billion received by the MPCV Program was a reduction of over $1.8 billion or
  34 percent of the funding NASA expected to receive in the last CEV budget request
  submitted prior to cancellation of the Constellation Program. Moreover, the MPCV
  Program anticipates a flat budget profile of approximately $1 billion per year for the
  remainder of the decade and into the 2020s. Assuming this budget profile and current
  development schedule, NASA plans to spend approximately $16.5 billion developing its
  crew vehicle by the time of the first crewed flight currently planned for 2021.

  Recently, the National Research Council echoed the Augustine Committee’s concerns
  about inadequate funding for NASA’s human exploration program. In a December 2012
  report assessing NASA’s strategic direction and agency management, the National
  Research Council concluded that “there is a significant mismatch between the programs
  to which NASA is committed and the budgets that have been provided or anticipated.
  The approach to and pace of a number of NASA’s programs, projects, and activities will
  not be sustainable if the NASA budget remains flat, as currently projected.”3 The
  National Research Council also noted that it was not clear that even the $3 billion annual
  infusion recommended by the Augustine Committee just a few years earlier would be
  sufficient to cover the exploration missions under consideration, specifically crewed
  missions to an asteroid and then Mars.

  As shown in Table 2, the President’s FY 2014 budget requests $3.1 billion for
  exploration in FY 2014 and then remains essentially flat each subsequent year through
  FY 2018.4 That level of funding is about one-third of the $9 billion the Augustine
  Committee concluded would be required annually to develop and maintain a viable
  human exploration program beyond low Earth orbit.

        Table 2: Exploration Research and Systems Development Budget Request Profile
                                        ($ in billions)
                                              President’s Budget Request Profile for
              Fiscal Year                              NASA Exploration
                  2014                                         $3.10
                  2015                                         $3.13
                  2016                                         $3.15
                  2017                                         $3.21
                  2018                                         $3.22
      Source: NASA.




  3
      “NASA’s Strategic Direction and the Need for a National Consensus,” Committee on NASA’s Strategic
      Direction; Division on Engineering and Physical Sciences; National Research Council, 2012,
      ISBN 978-0-309-31354-4.
  4
      Includes funding for the MPCV, SLS, and Ground Systems Development and Operations (GSDO)
      programs, and funding for Exploration Research and Development, including Human Research and
      Advanced Exploration Systems.



REPORT NO. IG-13-022                                                                                      3
                                                                                             INTRODUCTION



    Figure 1 illustrates key events in the development of the CEV/MPCV crew capsules.

                        Figure 1: CEV and MPCV Timeline of Significant Events




    Source: NASA.

    Overview of the MPCV. NASA is building the MPCV to support a four-person crew
    for up to 21 days on a beyond low Earth orbit mission.5 Run out of the Johnson Space
    Center (Johnson), the MPCV is comprised of three elements: the Crew Module, the
    Service Module, and the Launch Abort System.

             The Crew Module houses the flight crew and functions as the command, control,
              communications, and navigation center of the spacecraft.

             The Service Module provides propulsion, life support, and power for the Crew
              Module.

             The Launch Abort System is used in case of an emergency that requires
              separation of the Crew Module from the launch vehicle and consists of a nose
              cone, three motors, and a shroud (see Figure 2).




    5
        Longer missions would require additional modules that would connect to the MPCV in order to sustain
        life past 21 days.



4                                                                                   REPORT NO. IG-13-022
INTRODUCTION



  A Spacecraft Adapter connects the launch vehicle to the Crew Module, Service Module,
  and Launch Abort System.

                                    Figure 2: MPCV




  Source: NASA.

  Additional Elements of the Human Exploration Program. In addition to the MPCV
  Program, NASA has established the SLS Program to develop the rocket that will launch
  the MPCV and the GSDO Program to develop the infrastructure required for processing
  and launching the SLS and MPCV. The Agency has also formed a partnership with the
  European Space Agency (ESA) to provide the MPCV Service Module for at least one test
  flight.




REPORT NO. IG-13-022                                                                     5
                                                                                                     INTRODUCTION



    Space Launch System. The Authorization Act directs NASA to develop the SLS to
    access space beyond low Earth orbit. NASA plans to use the SLS, which will be the
    most powerful U.S. rocket since the Saturn V took astronauts to the moon, to launch the
    MPCV into orbit. NASA expects the SLS to serve as the cornerstone for its future
    human space exploration to an asteroid or Mars. The Marshall Space Flight Center hosts
    the SLS Program.

    Ground Systems Development and Operations. NASA will launch the MPCV from
    Pad B at the Kennedy Space Center (Kennedy), which hosts the Program. The GSDO
    Program is developing the launch site infrastructure to prepare, assemble, test, and launch
    the MPCV and SLS.

    Accordingly, the GSDO Program must coordinate closely with the MPCV and SLS
    programs to connect the crew vehicle to the SLS and transport the integrated vehicle to
    the launch pad.

    European Space Agency. In January 2013, NASA and the ESA announced that ESA
    would supply the Service Module for NASA’s Exploration Mission-1 scheduled for 2017
    as a means of paying off barter debt ESA owes NASA for ISS operating expenses.6 ESA
    will also provide spare hardware for Exploration Mission-1 and sustaining engineering
    that could be used for Exploration Mission-2.7

    The ESA plans to model the Service Module on ESA’s Automated Transfer Vehicle,
    which has successfully delivered supplies to the ISS on four occasions. NASA will
    provide the main engine and other miscellaneous parts for the ESA module and Lockheed
    Martin, the MPCV prime contractor, will integrate the module with the rest of the
    spacecraft. Because the Service Module is a vital part of the MPCV, the agreement
    between the two space agencies puts ESA on the Program’s critical path and creates an
    additional dependency that NASA must manage.8

    In addition to MPCV, SLS, and GSDO activities, NASA needs to develop additional
    hardware, such as habitation modules and landers, in order to use the MPCV to perform
    planetary surface exploration missions. No such hardware is currently in development.

    American Reinvestment and Recovery Act of 2009 (Recovery Act). NASA allocated
    $166 million of the $1 billion of Recovery Act funds it received in 2009 to the MPCV
    Program.




    6
        Bartering is the trading of a product or service for another, generally with no exchange of money.
    7
        Sustaining engineering refers to activities required to support a program during its operational phase.
    8
        The term critical path describes a sequential path of tasks in a program schedule through completion.
        Any significant slippage of tasks in the critical path will increase the program’s duration and, most likely,
        its cost.



6                                                                                           REPORT NO. IG-13-022
INTRODUCTION



Objectives

  We evaluated NASA’s management of the MPCV Program in light of the directives in
  the Authorization Act and subsequent changes in national space exploration priorities,
  Program focus, and funding profiles. Specifically, we reviewed the Program’s
  development approach, its progress in meeting cost and schedule goals and overcoming
  technical challenges, and its coordination with the SLS and GSDO programs and ESA.
  We also reviewed the procedures MPCV officials followed for spending and tracking the
  $166 million in Recovery Act funds the Program received. See Appendix A for details of
  the audit’s scope and methodology and our review of internal controls.




REPORT NO. IG-13-022                                                                       7
                                                                                                 RESULTS




                       MULTI-PURPOSE CREW VEHICLE PROGRAM FACES
                             SIGNIFICANT RISKS IN MEETING NASA’S
                                       HUMAN EXPLORATION GOALS
              The MPCV Program faces significant risks in meeting NASA’s goal of human
              exploration beyond low Earth orbit. Foremost is a constrained funding profile that
              has forced the Agency to adopt an incremental development approach under which it
              allocates funding to the most critical systems necessary to achieve the next
              development milestone rather than to developing multiple systems simultaneously as
              is common in major spacecraft programs. Although the only practical solution given
              the Program’s overall funding level, this approach increases the risk of cost overruns
              and schedule delays because it postpones critical tests and integration tasks until later
              in development. In addition, the Program faces significant technical challenges,
              including heat shield issues, delays in producing engineering drawings, and concerns
              about vehicle weight. Finally, the MPCV’s overall success will rely in great measure
              on the timing and success of the other elements of NASA’s human exploration
              program – the SLS and the GSDO programs – as well as its partnership with the
              ESA on the MPCV Service Module. Schedule delays or cost overruns on any of
              these interdependent components could negatively affect the MPCV Program.

Incremental Development Approach Increases Risk of Cost
  Overruns and Schedule Delays

    The incremental development approach NASA has adopted for the MPCV puts the
    Program at risk for increased cost and schedule delays. Prior audit work by the NASA
    Office of Inspector General (OIG) and the Government Accountability Office (GAO) has
    shown that the most effective budget profile for large and complex space system
    development programs like the MPCV is steady funding in the early stages of
    development and increased funding during the middle stages of development.9 As
    depicted in Figure 3, the GAO Cost Estimating and Assessment Guide illustrates a typical
    space system lifecycle model and shows a bell-shaped funding curve for research,
    development, testing, and evaluation because more resources are needed as development
    progresses and programmatic risks are identified and remediated. In contrast, MPCV’s
    budget profile through at least 2018 remains flat. MPCV Program officials
    acknowledged that a flat funding trajectory is not optimal and increases the risk that
    costly design changes may be needed later in the Program when they begin to integrate
    and test the capsule with other Program elements.




    9
        NASA OIG, “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals,” (IG-12-021,
        September 27, 2012), and GAO, “GAO Cost Estimating and Assessment Guide,” (GAO-09-3SP,
        March 2009).



8                                                                                REPORT NO. IG-13-022
RESULTS



                Figure 3: Lifecycle Funding Profile for Space System Development




  Note: O&M = operations and maintenance; RDT&E = research, development, test, and evaluations;
  SV = space vehicle; EOL = end of life; ATP = authority to proceed; IOC = initial operational capacity; and
  FOC = full operational capacity.

  Source: GAO.

  The MPCV Program received $1.2 billion each year for FY 2011 though FY 2013.
  According to the President’s FY 2014 Budget Request, MPCV Program managers expect
  their budget to be “flat-lined” at $1 billion per year through at least 2018. In fact, due to
  inflation, MPCV’s flat budget profile actually represents a reduction in out-year
  purchasing power.




REPORT NO. IG-13-022                                                                                           9
                                                                                                        RESULTS



                                        Figure 4: MPCV Budget Profile




     Source: OIG analysis of budget data obtained from NASA.

     The MPCV Program has experienced significant budget reductions in the development
     phase, which Program officials say has made it difficult to plan and execute a viable
     development schedule. For example, NASA has delayed development of life support
     systems and some avionics due to budget constraints. The Aerospace Safety Advisory
     Panel – an advisory group that evaluates NASA’s safety performance – considers the
     MPCV’s flat budget profile the Program’s biggest risk.10

     Incremental Development. To adapt to MPCV’s flat budget profile, Program managers
     have implemented an incremental development approach under which they allocate
     available funding to the most critical systems needed to meet the next development
     milestone. For example, according to MPCV Program managers, current work is focused
     primarily on the systems needed to achieve the objectives of the first two flight tests,
     while postponing development and testing of life support systems not needed until the
     first crewed flight. In addition, lack of adequate funding at this point in the Program’s
     development cycle also requires Program managers to defer an in-flight launch abort test
     for 4 years.

     Given the Program’s constrained funding profile, we appreciate that NASA managers
     have few options apart from an incremental development approach. However, prior work
     10
          Aerospace Safety Advisory Panel, “Annual Report for 2012,” (January 9, 2013). Exploration Systems
          Development “has a ‘flat budget’ that by nature causes phasing and integration compromises for a
          program that needs a classic skewed bell curve for development. NASA should continue to monitor the
          funding going forward and be prepared to mitigate any mission and safety concerns should future NASA
          budgets be significantly reduced due to the prevailing fiscal environment.”



10                                                                                      REPORT NO. IG-13-022
RESULTS



  by the OIG has shown that delaying critical development tasks in complex spaceflight
  development programs increases the risk of cost and schedule problems and causes
  development of critical technologies to be deferred to later program phases when
  integration may be more difficult or the costs of material and labor greater. Shifting tasks
  to later program phases also results in higher fixed costs, including sustaining a standing
  work force or adding shifts later in development in an attempt to make up for lost time.

  For its part, NASA acknowledges the risks associated with incremental development of
  the MPCV, noting in its Program Plan that “this cost-driven approach may yield
  incomplete development, verification, or validation testing and drive the Program to
  assume much higher risk in achieving human spaceflight objectives.”

MPCV Program Experiencing Schedule Delays

  While many of the risks inherent in an incremental development approach are not likely
  to occur until later in development, the MPCV Program has already experienced schedule
  delays. Most importantly, the Program will not meet the Authorization Act’s goals of
  achieving full operational capability for the MPCV by 2016 or providing a backup to
  commercial companies to transport crew to the ISS. NASA plans to delay delivery of
  several systems required to “human rate” the MPCV and, as a result, the Agency does not
  expect the spacecraft to be available for crewed operations until 2021 (a year later than
  the currently scheduled retirement date for ISS operations).11 To achieve a crewed flight
  in 2019, NASA estimates the MPCV Program would need approximately $1 billion more
  in total than it is currently expected to receive during the next 5 years. An additional
  $300 million would be required to equip the MPCV with a docking mechanism/hatch,
  ISS power and communications equipment, and mission unique software and other
  hardware needed for it to serve as a backup transport vehicle to the ISS.

  NASA has planned four flights to test critical MPCV mission systems and demonstrate
  performance of its various flight systems:

         1. Exploration Flight Test-1: an un-crewed flight planned for 2014 that will orbit
            the Earth twice before re-entering the atmosphere.

         2. Exploration Mission-1: an un-crewed mission planned for 2017 that will orbit the
            Moon before returning to Earth.

         3. Ascent Abort-2: test of the abort system that separates the Crew Module from the
            launch vehicle in a high altitude environment scheduled for 2018.

         4. Exploration Mission-2: a crewed lunar orbit mission scheduled for 2021.


  11
       A human-rated system accommodates human needs, controls hazards with sufficient certainty to be
       considered safe for human operations, and provides the capability to safely recover from emergencies.
       Human rating is an integral part of all activities throughout the lifecycle of the system.



REPORT NO. IG-13-022                                                                                           11
                                                                                           RESULTS



     However, NASA has delayed two key tests of MPCV systems in the near term. As
     shown in Figure 5, NASA has delayed the Ascent Abort-2 test 4 years and the
     Exploration Flight Test-1 9 months. Additionally, under the Program’s incremental
     development strategy NASA has delayed development of many of the life support
     systems required for performing crewed missions. As a result, many of the capabilities
     needed to sustain life onboard the vehicle will not be fully proven until Exploration
     Mission-2, the Program’s first crewed mission. For example, NASA originally planned
     to test the air revitalization system that circulates and filters air in the crew module on
     Exploration Flight Test-1 in 2014. However, MPCV Program managers have delayed
     testing these systems under flight conditions until Exploration Mission-2, the first crewed
     flight.

                         Figure 5: MPCV Completion Dates for Critical Tests




     Source: NASA.

     Deferring testing of subsystems in complex development programs can result in serious
     problems not being identified until latter stages of development, requiring significant
     time, money, and effort to overcome. Although testing delays have not yet resulted in the
     delay of an SLS planned launch date, pushing out testing has narrowed the cushion of
     time the MPCV Program will have to address any issues uncovered during testing. Up to
     this point, the most significant delay was the 4-year postponement of the Ascent Abort-2
     test needed to validate the launch abort system as the spacecraft breaks the speed of
     sound. NASA had scheduled this test for 2014, approximately 3 years before the launch
     of Exploration Mission-1 and approximately 7 years before the Program’s first scheduled
     crewed flight. However, in light of budget constraints, the test is now scheduled for
     2018, 3 years before the first crewed flight. This cuts nearly in half the time the Program
     will have to address any issues discovered during the test before the crewed flight.
     MPCV Program managers consider this an acceptable development risk for the abort
     system given the system maturity demonstrated in the successful first test of the launch
     abort system in 2010. Nevertheless, MPCV Program managers acknowledge that
     unanticipated technical issues with the abort test could increase the risk of cost increases
     and schedule delays for NASA’s exploration program.


12                                                                          REPORT NO. IG-13-022
RESULTS



  The Exploration Flight Test-1 delay was largely due to the limited availability of a launch
  vehicle to conduct the test as well as the need to correct unforeseen technical issues
  associated with heat shield, avionics, and spacecraft system integration conducted in
  FY 2012.12 The extra time and expense in addressing these technical issues could have a
  cascading effect on the MPCV’s Program schedule and the funding available for future
  tests. Under NASA’s incremental development approach, teams will not begin working
  on Exploration Mission-1 until the first test flight is completed. Consequently, any
  delays in the first test flight will likely delay the first crewed flight.

  MPCV Program managers told us they plan to draw funding from the Program’s
  management reserves to prioritize Exploration Mission-1 development activities in order
  to meet that mission’s FY 2017 test date.13 While Program officials expect that these
  extra funds will cover Exploration Mission-1 costs and keep the flight on schedule, they
  concede that the Program’s overall management reserves may not be adequate to cover
  unforeseen technical challenges associated with Exploration Mission-2. Currently,
  Exploration Mission-2’s internal cost and schedule targets anticipate 1 year of budget and
  schedule reserve. Of the more than $1 billion of MPCV budget reserves, approximately
  $870 million are budgeted for FYs 2019 to 2021 for Exploration Mission-2. However,
  these reserves could be dramatically reduced if diverted to the earlier Exploration
  Mission-1 flight, leaving an inadequate amount of reserves to complete Exploration
  Mission-2 on schedule.

MPCV Program Must Still Overcome Technical Challenges

  Moving forward, the MPCV Program’s ability to meet cost, schedule, and performance
  targets will depend on its ability to overcome technical challenges inherent in any
  large-scale, complex development program. While NASA has made progress on
  mitigating risks to the Program, problems persist with mass reduction, spacecraft test
  verification, heat shields, and engineering drawing release rates.

  NASA uses risk management as a tool to identify unanticipated problems that could
  adversely affect a program’s performance, schedule, cost, or safety. The Agency rates
  risks as high, moderate, or low based on the combination of their likelihood and
  consequence.14 The MPCV Program is tracking 248 risks – 61 high, 110 moderate,

  12
       Program officials explained that although the MPCV Program experienced an approximate 4 month
       delay in development due to technical challenges, the development challenges were superseded by a
       9 month delay (from December 2013 to September 2014) because of the limited availability of a launch
       vehicle to conduct the test.
  13
       A management reserve is an amount in a program’s budget set-aside for “known unknowns” – previously
       identified risks such as the heat shield production schedule.
  14
       The MPCV Program identifies risks and concerns, analyzes them, decides how to address them, and
       tracks and controls them. Risks are scored and assessed based on likelihood and consequence with
       likelihood scores ranging from 1 to 5. Consequence scores also range from 1 to 5 using four categories:
       safety, performance, cost, and schedule. A risk’s composite consequence score is the highest value from
       these four categories. Finally, each risk is given an overall rating of high, moderate, or low based on the
       combination of its likelihood and consequence scores.



REPORT NO. IG-13-022                                                                                                 13
                                                                                             RESULTS



     30 low, and 47 that have not yet been rated. The following are examples of significant
     ongoing technical risks to the MPCV Program:

           Spacecraft Weight. According to Program officials, the MPCV needs to weigh
            73,500 pounds or less at lift off to meet Program specifications and safety
            requirements. When the Exploration Mission-2 mass reduction activity began in
            FY 12, the projected total weight of the crewed mission was 78,944 pounds, or
            more than 7 percent over target weight. While MPCV has made progress in
            identifying and implementing weight reductions, concerns exist that these efforts
            will not be sufficient to alleviate the issue. Failure to address the weight issue in a
            timely manner could force NASA to change the mission objectives of Exploration
            Mission-2 in order to meet the scheduled launch date for the mission. Further
            mass reductions would then be implemented incrementally on subsequent flights
            based on actual mission experience.

           Vehicle Test and Verification Plan. MPCV Program officials consider the
            Vehicle Test and Verification Plan a “high” risk because the Program has
            eliminated or combined several tests due to funding issues. Generally,
            eliminating or reducing the amount of planned testing increases the overall risk
            that a program will not be able to achieve its goals. For example, Program
            officials eliminated thermal vacuum testing from Exploration Mission-1 and
            deferred other testing from Exploration Mission-1 to Exploration Mission-2.
            Changes to the test plans will decrease the amount of integrated testing and
            increase reliance on individual component and subsystem testing. Program
            officials said they recognize the lack of integrated testing may increase technical
            risks to development of the spacecraft’s Environmental Control and Life Support
            System.

           Cracking of Heat Shield. The MPCV applies a material known as Avcoat, which
            was also used on Apollo spacecraft, to the capsule’s heat shield to serve as a
            protective barrier during re-entry into the Earth’s atmosphere. Unfortunately, the
            material has shown tendencies to crack under thermal conditions similar to those
            the capsule will experience during the mission in the deep space environment
            prior to reentering the Earth’s atmosphere. Program officials have instituted a
            number of risk mitigation activities, including material testing, stress analysis, and
            computer simulation designed to lower the likelihood of surface cracking and to
            demonstrate heat shield integrity should cracking occur. MPCV officials have
            also implemented design controls to limit the in-space Avcoat temperature
            extremes on the Exploration Flight Test-1 heat shield. One of the primary goals
            of this first flight test will be to validate these efforts and fully demonstrate that
            the heat shield will meet requirements. If the heat shield cracking degrades below
            mission requirements, the Program’s schedule will be impacted while officials
            develop a solution.




14                                                                            REPORT NO. IG-13-022
RESULTS



         Heat Shield Production Schedule. The heat shield may not be completed and
          delivered to Kennedy to begin MPCV assembly, testing, and launch operations
          activities in time for Exploration Flight Test-1. NASA asked the manufacturer of
          Avcoat to restart the production line for the MPCV. However, manufacturing has
          been slow due to the availability of parts, fabrication complexity, and staffing and
          training issues. NASA is working with the manufacturer to mitigate this schedule
          risk. Because the Avcoat material is unique, NASA has no alternative for using a
          substitute material.

         Engineering Drawing Release Rate. Problems with the computer systems that
          manage engineering data and drawings have caused design engineers to
          experience 3 to 5 hours of delay per day when performing routine tasks such as
          extracting drawings from the database. Although the computer system has been
          upgraded and processes have been refined to help alleviate these delays, there is a
          risk that not all of the required drawings will be released in time to meet
          Exploration Mission-1’s scheduled flight date of December 2017.

Dependency on Progress of Other Programs Could Hinder MPCV
  Development

  In addition to its own challenges, the MPCV Program’s success relies, in large part, on
  the success of the other programs integral to NASA’s plans for exploration beyond low
  Earth orbit, specifically the SLS and GSDO programs and the ESA-provided Service
  Module. The evolving configuration requirements among the programs necessitate close
  coordination, and significant delays in any component will affect NASA’s overall time
  frame for human space exploration.

  Differences in Stages of Development. One of the primary challenges facing NASA is
  that the MPCV is a legacy system from the Constellation Program, while the SLS rocket
  launch system is based on a platform that is vastly different and not derived from the
  Ares V heavy lift rocket that was being designed under the Constellation Program.
  Therefore, the MPCV is much farther along in development than the SLS and GSDO
  programs. As shown in Figure 6, NASA divides the lifecycle of its spaceflight programs
  into two major phases – formulation and implementation – that are further divided into
  phases A through F. Phases A and B consist of formulation and C through F consist of
  implementation. This structure allows managers to assess the progress of their programs
  at key decision points in the process. Generally speaking, programs that stay within the
  parameters of their plans and other governing agreements proceed to the next phase.




REPORT NO. IG-13-022                                                                             15
                                                                                                          RESULTS



                                        Figure 6: Simplified Lifecycle Phases




     Source: NASA Schedule Management Handbook.

     The Constellation Program’s CEV Project successfully completed PDR at the end of
     Phase B in August 2009. This means that the Program demonstrated that its preliminary
     design met all system requirements with acceptable risk and within cost and schedule
     constraints.15 CEV Project managers were preparing to proceed to Phase C of the
     implementation phase when the Constellation Program was cancelled. On the other hand,
     the SLS and GSDO programs are still in the early design phases. SLS just completed its
     PDR in July 2013 while GSDO has not yet completed its PDR.

     Efforts to Coordinate Programs. Recognizing that the programs are at different stages
     of development, NASA management has taken action to synchronize the MPCV Program
     with the development schedules for the SLS and GSDO programs. For example, instead
     of proceeding to the implementation phase, officials directed the MPCV Program to
     coordinate its development with the SLS and GSDO programs and remain in the
     formulation phase until the rocket development and ground system programs were more
     mature. In extending the formulation phase for the MPCV Program, managers revised
     the Program’s Key Decision Points and other developmental milestones to better align
     with the SLS and GSDO programs. Figure 7 illustrates the revised development schedule
     for the CEV Project and the MPCV, SLS, and GSDO programs.




     15
          A successful PDR establishes the basis for proceeding with a program’s detailed design phase.



16                                                                                        REPORT NO. IG-13-022
RESULTS



                  Figure 7: Milestone Reviews for CEV, MPCV, SLS, and GSDO




  Source: NASA.


  MPCV Program managers stated that revising the developmental milestones should help
  ensure that they can validate integration points and design changes between the CEV and
  MPCV that resulted from the selection of the SLS as the new launch vehicle. Under the
  revised schedule, NASA plans to conduct another PDR for the MPCV Program in
  April 2014, which is after the SLS PDR that was completed.

  In addition to aligning schedules, NASA has taken other steps to coordinate the MPCV,
  SLS, and GSDO programs. For example, the Agency established an Exploration Systems
  Integration structure that delegates authority to make the majority of cross-program
  integration decisions by leaders residing in each of the programs. Teams from the three
  programs communicate requirements, and assess budget and cost implications of
  changing assumptions and configurations as the programs evolve.

  MPCV Program officials must also coordinate with ESA, which is supplying the Service
  Module for Exploration Mission-1. For the MPCV Program to stay on schedule for the
  planned 2017 launch of Exploration Mission-1, ESA will have to provide the Service
  Module by 2016. Although the Module will be based on a proven design that has
  delivered supplies to the ISS four times, ESA and its industrial partners still need to
  reduce its weight by approximately 1,200 pounds to meet Exploration Mission-1
  requirements. Failure to address the weight requirements in a timely fashion could lead
  to delays in the delivery of the service module.




REPORT NO. IG-13-022                                                                        17
                                                                                         RESULTS



     In general, integration risks remain a concern given the relative immaturity and evolving
     nature of the SLS and GSDO programs. In addition, delays in delivery of the ESA
     Service Module or technical issues integrating it with the SLS or other MPCV elements
     could result in development or schedule delays beyond the control of the MPCV
     Program.

Recovery Act Funds Appropriately Used for MPCV

     The Recovery Act was signed into law in February 2009 to jumpstart the U.S. economy,
     preserve or create jobs, and spur technological advances in science and health. NASA
     received $1 billion from the Recovery Act and allocated $166 million to the MPCV
     Program. We found that NASA appropriately used Recovery Act funds for the MPCV
     Program as intended. In addition, the Program adequately addressed the reporting
     requirements of the Recovery Act and related Office of Management and Budget (OMB)
     guidance.

Conclusion

     The MPCV is one of three key components of NASA’s efforts to move human
     exploration beyond the ISS and low Earth orbit. Consequently, its successful
     development is critical to the overall success of the Agency’s human exploration efforts.
     However, constrained funding levels for the MPCV forced Program managers to adopt an
     incremental development approach in which only elements necessary to complete the
     most immediate tests are given priority while development and testing of other important
     but less time sensitive aspects are postponed. While this may be the only realistic
     development approach available given the Program’s current funding profile, it is far
     from optimal and runs counter to traditional space development programs.

     Although we believe MPCV Program officials are managing the Program as effectively
     as they can within a constrained budget, we are concerned about the future of the
     Program given the risks associated with incremental development and the Program’s
     dependency on the progress of the SLS and GSDO programs and the ESA for delivery of
     a Service Module. The Program is beginning to experience testing delays that could
     result in schedule interruptions and cost increases down the road. For example, test dates
     have slipped 4 years on the Ascent Abort-2 test and 9 months on the Exploration Flight
     Test-1. Similarly, reliance on the progress and effectiveness of integration with the SLS
     and GSDO programs and ESA adds risk that is outside the control of the MPCV
     Program.

     After the MPCV is fully developed and ready to transport crew, NASA will continue to
     face significant challenges concerning the long-term sustainability of its human
     exploration program. For example, unless NASA begins a program to develop additional
     exploration hardware such as landers and surface systems, NASA astronauts will be
     limited to orbital missions using the MPCV. Under the current budget environment, it
     appears that obtaining significant funding to begin development of any such additional


18                                                                         REPORT NO. IG-13-022
RESULTS



  exploration hardware will be difficult and such development is unlikely to begin until
  sometime into the 2020s. Given the amount of time and money necessary to develop this
  hardware, it is unlikely that NASA would be able to conduct surface exploration missions
  until the late 2020’s at the earliest.

Recommendation, Management’s Response, and Evaluation of
  Management’s Response

  Although we made no specific recommendations for corrective action in a draft of this
  report, we encouraged NASA managers to be as transparent as possible when discussing
  the issues facing the MPCV Program and the risk associated with its incremental
  development approach. We believe it vital that Congress and the public recognize that
  incremental spacecraft development is not an optimal way to sustain a human space
  program. Further, NASA must continue to enhance communication between the MPCV,
  SLS, and GSDO programs to ensure that the schedules for these interdependent programs
  remain aligned.

  The Associate Administrator for the Human Exploration and Operations Mission
  Directorate agreed with the general observations made in the report and with our
  description of the risks created by the funding challenges that drove the MPCV Program
  to adopt an incremental development strategy. In addition, he noted that the Program has
  made significant progress in mitigating the technical risks highlighted in the report, and
  that the MPCV, SLS, and GSDO programs actively participate in an integration process
  and governance structure with direct senior-level participation. Similarly, he stated that
  the Program is building strong relationships and making progress with ESA to assure its
  contribution of a service module meets the required schedule. Despite these efforts, the
  Associate Administrator noted that NASA must continue its efforts to enhance
  communication between the MPCV, SLS, and GSDO programs to ensure that the
  schedules for these interdependent programs remain aligned.

  Finally, the Associate Administrator stated that NASA managers are encouraged to be as
  transparent as possible when discussing the issues facing the MPCV Program and the
  risks associated with its incremental development. Management’s full response is
  reprinted in Appendix B.




REPORT NO. IG-13-022                                                                           19
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from October 2011 through July 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  The audit included reviews of two distinct areas: NASA’s management of the MPCV
  Program and its accounting for use of Recovery Act funds on the MPCV Program. We
  divided our audit work along these two areas, with separate scopes and methodologies for
  each.

  NASA’s Management of the MPCV Program. This review evaluated how NASA is
  managing the spacecraft’s development in response to the 2010 Authorization Act
  (Public Law 111-267) and subsequent changes in national space exploration priorities,
  Program focus, and funding profiles. For this review, we conducted audit work at
  Johnson; Kennedy; and Lockheed Martin, the prime contractor.

  We discussed the management and progress of the MPCV Program with the Assistant
  Manager for Strategy Integration and the Special Assistant for Program Integration
  periodically throughout our review. We also conducted interviews with two NASA
  Headquarters officials, the Deputy Associate Administrator for Exploration System
  Development, and the Chief Engineer; several other MPCV Program officials; Johnson
  officials from the Engineering and Safety and Mission Assurance Directorates; and the
  MPCV Program Manager and Deputy Program Manager at the prime contractor.

  We obtained and reviewed applicable documents and verified compliance with Federal
  law. The records we reviewed include the following:

         “Multi-Purpose Crew Vehicle Program Plan,” July 24, 2012 (Baseline);
         “Final Report Regarding NASA's Space Launch System and Multi-Purpose Crew
          Vehicle,” November 21, 2011;
         “Independent Cost Assessment of the Space Launch System, Multi-Purpose Crew
          Vehicle and 21st Century Ground Systems Programs, Final Report,” Booz Allen
          Hamilton, August 19, 2011;
         “Preliminary Report [to Congress] Regarding NASA's Space Launch System and
          Multi-Purpose Crew Vehicle,” January 2011;
         MPCV/Prime Contractor Weekly Schedule Review Presentations;



REPORT NO. IG-13-022                                                                          21
                                                                                         APPENDIX A



           MPCV Quarterly Program Performance Review Presentations;
           MPCV Vehicle Configuration Matrix, as amended;
           relevant NASA Advisory Council meeting presentations and minutes; and
           relevant Congressional testimony.

     To accomplish our review of challenges that might hinder the MPCV development, we
     reviewed various MPCV budget, cost, schedule, and risk documents and the
     interdependencies of the MPCV Program with the SLS and GSDO programs.

     Recovery Act Funds Associated with the MPCV. The review examined the
     $166 million in Recovery Act funds NASA used toward the engineering design of ground
     test articles such as titanium heat shields, engineering design units such as avionics, and
     technology development for improved crew safety. The scope included NASA’s
     management, distribution, use, reporting, and closeout of these Recovery Act funds. For
     this review, we conducted audit work at Johnson, the NASA Shared Services Center, and
     NASA Headquarters.

     To accomplish our review, we interviewed appropriate NASA officials, reviewed
     applicable records, and verified compliance with Recovery Act requirements. NASA
     officials interviewed included the Agency’s Recovery Act Implementation Executive, the
     MPCV Program Manager, and the Johnson Resource Analyst responsible for tracking
     Recovery Act funds. We also interviewed the NASA Shared Services Center Accounts
     Payable Lead responsible for the accounting internal control processes that NASA put
     into place for Recovery Act compliance.

     The records we reviewed included Federal and Agency Recovery Act guidance,
     fund-related plans, contractual documents, status reports, and billing documents:
           “Updated Guidance on the American Recovery and Reinvestment Act,”
            (OMB M-10-34, September 24, 2010);
           “Updated Implementing Guidance for the American Recovery and Reinvestment
            Act of 2009,” (OMB M-09-15, April 3, 2009);
           “Initial Implementing Guidance for the American Recovery and Reinvestment
            Act of 2009,” (OMB M-09-10, February 18, 2009);
           Procurement Information Circular 09-06H, “Contracting with Recovery Act
            Funds including deviation to FAR and NFS Quick Closeout Procedures,”
            November 23, 2010;
           “Orion/MPCV Project Plan,” May 2009;
           contract modifications under which the Recovery Act-related work was
            performed;
           monthly technical and financial status reports, as well as quarterly status reports,
            submitted by the contractor performing the Recovery Act-related work; and
           contractor invoices billing NASA for the Recovery Act work performed.




22                                                                           REPORT NO. IG-13-022
APPENDIX A



  To assess compliance with Recovery Act requirements we verified that:
            Agency payments and accounting entries matched amounts on contractor invoices
             for the Recovery Act work,
            quarterly reports were submitted on time using a central government-wide data
             collection system for Federal Agencies and Recipients of Federal award per the
             Recovery Act,
            key milestones and deliverables were met,
            Recovery Act funds were expended and final invoices received, and
            MPCV Program status was marked “fully complete” in FederalReporting.gov.

  Use of Computer Processed Data
  We did not use computer-processed data to perform the review of NASA's management
  of the MPCV Program, but did use data from NASA’s financial system for the review of
  Recovery Act funds associated with the MPCV. As part of the review, we compared data
  from source documents against the data in the financial system. Based on the results of
  those comparisons, we concluded that the data was valid and reliable for the purposes of
  the review.

Review of Internal Controls

  For the review of NASA's management of the MPCV Program, we reviewed and
  evaluated internal controls associated with the development of the MPCV, including
  budgeting, scheduling, and cost assessment controls, as well as compliance with relevant
  laws and NASA policies and procedures. We considered the reviewed internal controls
  to be adequate.

  For the review of Recovery Act funds used on the MPCV, our review of internal controls
  included policies, procedures, and practices that the Agency implemented to provide
  reasonable assurance of compliance with Recovery Act requirements as identified in
  OMB guidance.16 Based on the results of our review, we considered the internal controls
  over the Recovery Act funds associated with the MPCV to be adequate.

Prior Coverage

  During the last 5 years, NASA OIG and GAO have issued reports of particular relevance
  to the subject of this report; these reports are listed below. Unrestricted reports can be
  accessed over the Internet at http://oig.nasa.gov/audits/reports/FY12 (NASA OIG) and
  http://www.gao.gov (GAO).


  16
       OMB, “Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
       (OMB M-09-15, April 3, 2009); “Initial Implementing Guidance for the American Recovery and
       Reinvestment Act of 2009,” (OMB M-09-10, February 18, 2009); and “Updated Guidance for the
       American Recovery and Reinvestment Act,” (OMB M-10-34, September 24, 2010).



REPORT NO. IG-13-022                                                                                  23
                                                                                  APPENDIX A



     NASA Office of Inspector General

     MPCV
     “NASA’s Challenges to Meeting Cost, Schedule and Performance Goals,” (IG-12-021,
     September 27, 2012);
     “NASA’s Plans to Modify the Ares I Mobile Launcher in Support of the Space Launch
     System,” (IG-12-022, September 25, 2012);
     “NASA's Constellation Standing Review Boards Established Without Due Regard for
     Member Independence Requirements,” (IG-09-011, February 25, 2009);
     “Addendum to Final Memorandum on the Standing Review Board for the Orion Crew
     Exploration Vehicle Project,” (IG-08-018, February 9, 2009);
     “More Stringent Entrance Criteria Needed for Project Lifecycle Reviews,” (IG-09-004,
     October 31, 2008); and
     “Final Memorandum on the Standing Review Board for the Orion Crew Exploration
     Vehicle Project,” (IG-08-018, April 28, 2008).


     Recovery Act
     “NASA's Management of Small Business Innovation Research and Small Business
     Technology Transfer Contracts Funded by the Recovery Act,” (IG-12-009-R, February 2,
     2012);
     “NASA's Use of Recovery Act Funding for the James Webb Space Telescope Project,”
     (IG-11-014, March 3, 2011);
     “Audit of NASA's Recovery Act Procurement Actions at Johnson Space Center, Goddard
     Space Flight Center, Langley Research Center, and Ames Research Center,” (IG-10-017,
     July 27, 2010); and
     “Final Memorandum on Review of Open Audit Recommendations Affecting Recovery
     Act Activities,” (IG-10-014, May 20, 2010).


     Government Accountability Office

     MPCV
     “NASA: Assessments of Selected Large-Scale Projects,” (GAO-13-276SP, April 17,
     2013);
     “NASA: Assessments of Selected Large-Scale Projects,” (GAO-12-207SP, March 1,
     2012);
     “Additional Cost Transparency and Design Criteria Needed for National Aeronautics and
     Space Administration (NASA) Projects,” (GAO-11-364R, March 3, 2011);



24                                                                      REPORT NO. IG-13-022
APPENDIX A



  “NASA: Assessments of Selected Large-Scale Projects,” (GAO-11-239SP,
  March 3, 2011);
  “NASA: Issues Implementing the NASA Authorization Act of 2010,” (GAO-11-216T,
  December 1, 2010);
  “NASA: Assessments of Selected Large-Scale Projects,” (GAO-10-227SP, February 1,
  2010);
  “NASA: Constellation Program Cost and Schedule Will Remain Uncertain until a Sound
  Business Case Is Established,” (GAO-09-844, August 26, 2009); and
  “NASA: Ares I and Orion Project Risks and Key Indicators to Measure Progress,”
  (GAO-08-186T, April 3, 2008).


  Recovery Act
  “Recovery Act: Status of Science-Related Funding,” (GAO-12-279T, November 30,
  2011), and
  “Recovery Act: Contracting Approaches and Oversight Used by Selected Federal
  Agencies and States,” (GAO-10-809, July 15, 2010).




REPORT NO. IG-13-022                                                                   25
                      APPENDIX B




     MANAGEMENT COMMENTS




26           REPORT NO. IG-13-022
APPENDIX B




REPORT NO. IG-13-022   27
                                                                                 APPENDIX C




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Financial Officer/Recovery Act Senior Accountable Official
     Associate Administrator, Human Exploration and Operations Mission Directorate
       Deputy Associate Administrator, Exploration Systems Development Division
     Recovery Act Implementation Executive
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Johnson Space Center
     Director, Kennedy Space Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management
        Recovery Accountability and Transparency Board

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




28                                                                    REPORT NO. IG-13-022
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   G. Paul Johnson, Project Manager
   Jim Richards, Lead Auditor
   Frank Martin, Engineer
   Linda Hargrove, Management Analyst
   Dimitra Tsamis, Management Analyst




REPORT NO. IG-13-022                                      29
                                                                                     AUGUST 15, 2013
                                                                        REPORT No. IG-13-022




                                                                                  OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
